No:
IN THE SUPREME COURT OF THE UNITED STATES
Ann Boris and Vamsidhar Vurimindi
Petition of Vamsidhar Vurimindi
vs.
Wells Fargo Bank, NA, Respondent

PROOF OF SERVICE
I, Vamsidhar Vurimindi, do swear or declare that on this date served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel,
and on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days. The names and addresses of those served are as
follows:
1. Steven J. Adam, Esq, Stevens & Lee, PC, 111 North Sixth Street, P. O. Box#
679, Reading, PA 19603. (Counsel for Wells Fargo Bank, NA).
Date: October 19, 2020

Respectfully Submitted,
Vamsidhar Vurimindi, A#096-689-764,
Petitioner, Pro Se
Montgomery Processing Center,
806 Hilbig Road,
Conroe, TX-77301.

31

